Audit Report




OIG-11-057
The Failed and Costly BSA Direct R&S System Development
Effort Provides Important Lessons for FinCEN’s BSA
Modernization Program
January 5, 2011




Office of
Inspector General
Department of the Treasury
Contents


Audit Report ..................................................................................................1

    Results in Brief ...............................................................................................2

    Findings ......................................................................................................7

        Poor Project Management, Insufficient Departmental Oversight, and
        Contractor Performance Impaired BSA Direct R&S Development ......................7

        FinCEN Did Not Adequately Plan the BSA Direct R&S Project ........................ 20

        FinCEN Used Funds from Various Sources to Cover BSA Direct R&S
        Development Costs ..................................................................................29

    Concluding Remarks and Recommendations .................................................... 32

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................... 40
    Appendix     2:      Background........................................................................... 43
    Appendix     3:      Chronology of Significant BSA Direct R&S Events ..................... 46
    Appendix     4:      FinCEN’s Management Response ............................................. 50
    Appendix     5:      Treasury’s Office of the Chief Information Officer
                         Management Response .......................................................... 54
    Appendix 6:          Major Contributors to This Report ............................................56
    Appendix 7:          Report Distribution ................................................................. 57

Abbreviations

        BSA              Bank Secrecy Act
        CIO              chief information officer
        CO               contracting officer
        COTR             contracting officer’s technical representative
        D-TAR            Department of the Treasury Acquisition Regulation
        EDS              Electronic Data Systems Corporation
        EVM              earned value management
        FAR              Federal Acquisition Regulation
        FinCEN           Financial Crimes Enforcement Network

                         The Failed and Costly BSA Direct R&S System Development Effort Provides              Page i
                         Important Lessons for FinCEN’s BSA Modernization Program (OIG-11-057)
Contents


   GAO       Government Accountability Office
   IRS       Internal Revenue Service
   IT        information technology
   IV&V      independent verification and validation
   OCIO      Office of the Chief Information Officer
   OIG       Office of Inspector General
   OMB       Office of Management and Budget
   PM        project manager
   PSC       personal services contractor
   RFP       request for proposal
   R&S       retrieval and sharing
   SOW       statement of work
   TFF       Treasury Forfeiture Fund
   WebCBRS   Web-based Currency and Banking Retrieval System




             The Failed and Costly BSA Direct R&S System Development Effort Provides   Page ii
             Important Lessons for FinCEN’s BSA Modernization Program (OIG-11-057)
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                  January 5, 2011

                  James H. Freis, Jr., Director
                  Financial Crimes Enforcement Network

                  Diane C. Litman, Acting Deputy Assistant Secretary for Information
                  Systems/Chief Information Officer
                  Department of the Treasury

                  The Financial Crimes Enforcement Network (FinCEN) is responsible
                  for overseeing the management, processing, storage, and
                  dissemination of Bank Secrecy Act (BSA) data. In 2004, FinCEN
                  embarked on a major initiative, known as BSA Direct, to improve
                  the usefulness and functionality of the BSA data and transition the
                  BSA data from the Internal Revenue Service (IRS). As part of this
                  effort, FinCEN awarded a contract to Electronic Data Systems
                  Corporation (EDS) to design, develop, implement, and provide Web
                  hosting and support for the retrieval and sharing component of the
                  project, known as BSA Direct Retrieval and Sharing (BSA Direct
                  R&S). FinCEN terminated BSA Direct R&S in July 2006, after
                  determining that the project had no guarantee of success. The total
                  amount of funding expended on the failed project was $17.4
                  million.

                  This report presents our review of FinCEN’s efforts to develop and
                  implement BSA Direct R&S and the Treasury Office of the Chief
                  Information Officer’s (OCIO) monitoring of the project. Our specific
                  objectives were to (1) determine why the system development
                  initiative failed, (2) evaluate the project’s planning, (3) determine
                  the amount and source of funds spent on BSA Direct R&S
                  development, and (4) provide recommendations to increase the
                  likelihood of successful initiatives of this nature going forward.



                  The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 1
                  Important Lessons for FinCEN’s BSA Modernization Program (OIG-11-057)
                       We performed our fieldwork in 2006 to 2007, though we
                       continued to clarify information through 2009. Appendix 1 provides
                       a detailed description of our audit objectives, scope, and
                       methodology.

                       Issuance of this report was delayed considerably due to a high
                       volume of unprecedented mandated work by our office. That work
                       principally relates to the number of reviews of failed financial
                       institutions that we are required to perform under the Federal
                       Deposit Insurance Act. While this report is being issued later than
                       we would have liked, we believe its message remains relevant and
                       that the lessons learned from the BSA Direct R&S failure should be
                       taken into consideration as FinCEN undertakes its new BSA
                       Information Technology (IT) Modernization Program that it began
                       planning for in fiscal year 2007 and implementing in fiscal year
                       2010. 1 That said, it is important to note that FinCEN’s senior
                       management team has changed since the BSA Direct R&S project
                       was terminated and it is not our intent to imply, and we do not
                       imply, that the problems experienced with BSA Direct R&S project
                       are reflective of the current BSA IT modernization effort.


Results in Brief
                       BSA Direct R&S failed for a number of reasons. The primary cause
                       was poor project management. FinCEN inappropriately allowed a
                       personal services contractor (PSC), 2 who lacked prior experience or
                       expertise, to be the de facto manager of the project. FinCEN also
                       did not sufficiently define functional and user requirements,

1
  FinCEN’s appropriation for fiscal year 2010 included a $10 million increase to modernize the BSA
technical environment. House Report 111-366 directs FinCEN to submit a semiannual report to the
House and Senate Appropriations Committees summarizing the agency’s progress regarding its
information technology modernization effort, including milestones planned and achieved, progress on
cost and schedule, management of contractor oversight, strategies to involve stakeholders, and
acquisition management efforts.
2
  A personal services contract is characterized by the employer-employee relationship it creates between
the Government and the contractor’s personnel. The Government is normally required to obtain its
employees by direct hire under competitive appointment or other procedures required by the civil service
laws. Obtaining personal services by contract, rather than by direct hire, circumvents those laws unless
Congress has specifically authorized acquisition of the services by contract. Congress authorized
FinCEN in the annual appropriations acts to procure personal services contracts.

                       The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 2
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       misjudged the complexity of the project, and failed to establish a
                       realistic development completion date. Furthermore, FinCEN senior
                       management in place at the time was not willing to accept
                       constructive criticism and take the necessary corrective actions
                       throughout the project as recommended by MITRE Corporation. 3
                       FinCEN hired MITRE, at a cost of approximately $1 million, to
                       perform independent verification and validation (IV&V) 4 of EDS's
                       development efforts and results. Also problematic was EDS’s
                       inability to properly staff the project because certain personnel
                       lacked the security clearances required by the contract even after
                       FinCEN had made certain accommodations to the contractor.
                       However, available documentation was very incomplete about the
                       extent to which matters involving security clearances impacted
                       project delays. Furthermore, we also found that Treasury’s OCIO
                       did not actively oversee the project and instead relied on reporting
                       from FinCEN.

                       FinCEN also poorly planned BSA Direct R&S. FinCEN initiated the
                       project without adequately coordinating with the IRS, which was
                       developing a similar system, or Treasury’s OCIO. Proper planning
                       should have included, among other things, working closely with the
                       IRS to develop a comprehensive strategy for managing BSA data
                       and avoiding the duplication and added costs that occurred.

                       Appendix 2 shows a chronology of significant events involving BSA
                       Direct R&S. Figure 1 below, provides a timeline identifying several
                       significant events in the BSA Direct R&S project.




3
  The MITRE Corporation is a not-for-profit organization chartered to work in the public interest with
expertise in systems engineering, information technology, operational concepts, and enterprise
modernization. MITRE was responsible for providing monthly status reports detailing progress made and
anticipated for the project, resources expended, any significant problems or issues encountered, actions
needed to resolve problems that were identified, and any variances from the proposed schedule.
4
  IV&V are services that include assessing the quality of the system design and software code written;
validation and monitoring of application development support activities; reviewing and evaluating all
deliverables for consistency, accuracy, completeness and conformity with predefined deliverable
acceptance criteria and project standards; and reviewing and monitoring system, integration and
acceptance testing.


                       The Failed and Costly BSA Direct R&S System Development Effort Provides    Page 3
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
         Figure 1. Timeline of Significant Events in the BSA Direct R&S Project

          June 2004
        FinCEN awards                        June 2005
        contract to EDS                    FinCEN issues
         to deliver the                       letter of                 October 2005                     July 2006
           system by                         heightened                 Delivery date                   FinCEN halts
         October 2005                     concern to EDS                   missed                         contract




                           December 2004                    August 2005                  March 2006
                          Treasury certifies                Iteration 1 is              FinCEN issues
                           to Congress that                accepted (Note)               90-day stop
                          BSA Direct R&S is                                               work order
                          the only effort of
                             its kind in the
                               Department



         Source: OIG review of FinCEN data.
         Note: BSA Direct R&S was to be developed in 3 Iterations. Iteration 1 referred to the
         gathering and enhancement of data with limited system functionality.


                            By the time FinCEN terminated the contract in July 2006, it had
                            spent $17.4 million on BSA Direct R&S efforts, representing a
                            significant escalation from the nearly $9 million contract awarded
                            to EDS. It should also be noted that FinCEN had only $2 million
                            available for the project when the contract was awarded in June
                            2004, making funding uncertain from the very beginning of the
                            project and contrary to budgeting principles for capital projects
                            issued by the Office of Management and Budget (OMB).

                            To ensure FinCEN’s use of funds from other available budget
                            program activities and the Treasury Forfeiture Fund (TFF) was legal
                            and appropriate, we requested an opinion from the Government
                            Accountability Office (GAO). GAO concluded that FinCEN could
                            legally draw on fiscal year 2003 and 2004 appropriations to fund
                            BSA Direct R&S, but had improperly charged certain obligations to
                            its fiscal year 2005 and 2006 appropriations in violation of the
                            bona fide needs rule. 5 GAO said that FinCEN needed to adjust its

5
 The bona fide needs rule provides that an appropriation or fund limited for obligation to a definite
period is available only for payment of expenses properly incurred during the period of availability or to
complete contracts properly made within that period of availability of the appropriation.

                            The Failed and Costly BSA Direct R&S System Development Effort Provides                    Page 4
                            Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                         accounts to correct the violation. GAO also said if funds were not
                         available, FinCEN would need to report an antideficiency law
                         violation. FinCEN adjusted its accounts as recommended by GAO.
                         FinCEN also asserted that there were no known antideficiency act
                         violations. 6 We discuss the details of these matters in Finding 3 of
                         this report.

                         We are recommending that FinCEN (1) ensure that future system
                         development projects, including the current BSA modernization
                         project, are properly planned and the necessary expertise for
                         project management is in place; (2) coordinate with Treasury’s
                         OCIO concerning the current BSA modernization project as well as
                         any future information technology initiatives; (3) coordinate with
                         IRS for a consolidated solution to meeting the data needs of
                         FinCEN’s customers; (4) ensure that the security clearance
                         requirements established in contracts are appropriate for the
                         services and physical access requirements of contractor personnel,
                         and ensure contractors fully comply with those requirements;
                         (5) ensure that adequate contract and financial records are
                         maintained for the current BSA modernization project to allow for
                         audit and accurate reporting; and (6) assess the controls over
                         FinCEN’s use of personal services contracts to ensure that such
                         contracts are appropriate to FinCEN’s mission, and that individuals
                         hired under personal services contracts perform duties that are
                         appropriate and within their expertise. We are also recommending
                         that Treasury’s OCIO closely monitor the current BSA
                         modernization project to ensure sound project management
                         principles are followed.

                         FinCEN stated in its management response that it has gone through
                         many changes since the BSA Direct R&S effort began in 2004 and
                         ended in 2006. FinCEN is under new leadership and now has
                         project management expertise. It has implemented a number of
                         management tools and techniques to ensure successful
                         implementation of the current BSA IT Modernization Program.
                         FinCEN notes that the problems experienced with the BSA Direct
                         R&S are not reflective of the current program.


6
    We did not, as part of this audit, verify the adjustments made by FinCEN.

                         The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 5
                         Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
FinCEN now routinely coordinates with Treasury and OMB to
ensure adequate oversight and planning for the program. FinCEN’s
newly restructured information technology division, Technology
Solutions and Services Division (TSSD), employs a system
development life cycle (SDLC) approach. Also, FinCEN utilizes a
master schedule to monitor program cost and schedule, allowing
for optimum project planning and control.

FinCEN coordinates with Treasury’s OCIO through governance
boards that have regular meetings to discuss status, risks, and
issues, and provide the required approval or denial for the program
at the completion of each milestone in the SDLC. FinCEN also
coordinates with IRS through a council and with integration of one
another in the governance structures that support BSA information
technology systems.

To address security clearance concerns, FinCEN’s Security Office
has procedures in place to ensure that contracting personnel have
security clearances after a contract is awarded but prior to
commencement of work. To ensure adequate records are
maintained, FinCEN outsources the maintenance of complete
program contract files to the Department of Interior, National
Business Center Acquisition Services Directorate, and utilizes the
Bureau of the Public Debt accounting and financial systems to
maintain financial records. The systems allow for the use of project
codes to track expenditures and general reports with line item
accounting. FinCEN will use these agencies’ systems through
March 2013, which is the end of the contract performance period.

Regarding the use of personal services contracts, FinCEN has
restricted their use to situations in which no other contractual
vehicle is possible, subject to the approval of the Bureau Chief
Procurement Officer. The scope of these contracts is focused on
the unique and specific skill set of the individual with whom the
contract is performed. FinCEN currently has no personal services
contract and does not anticipate one in the future.

The Acting Deputy Assistant Secretary for Information
Systems/Chief Information Officer stated in a separate
management response that Treasury’s OCIO Capital Planning and

The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 6
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       Investment Control desk officer is closely monitoring major
                       Information Technology investments including the current BSA IT
                       Modernization Program. Additional oversight mechanisms have
                       been put into place to monitor the project, including (1) a BSA
                       Information Technology Executive Group to review the project
                       milestones and direct corrective actions; (2) a BSA Executive
                       Steering Committee to review risks, issues and challenges
                       associated with the project; (3) quarterly status reviews by the
                       Treasury Deputy Secretary and the Assistant Secretary for
                       Management; and (4) the use of Treasury’s High Visibility List to
                       subject the BSA IT Modernization Program to extra scrutiny and
                       attention. In addition, OMB monitors the project through periodic
                       status review and reports provided by the OCIO.

                       The actions taken and planned by FinCEN and Treasury’s OCIO
                       meet the intent of our recommendations. It should be noted that
                       we have initiated an audit of FinCEN’s BSA IT Modernization
                       Program, and plan to assess these actions as part of that audit.
                       The FinCEN management response is provided in appendix 4 and
                       the Treasury’s OICO management response is provided in
                       appendix 5.


Findings

Finding 1              Poor Project Management, Insufficient Departmental
                       Oversight, and Contractor Performance Impaired BSA
                       Direct R&S Development

                       FinCEN’s poor management of BSA Direct R&S, lack of
                       Departmental oversight, and untimely response to contractor
                       performance problems contributed to project failure and cost
                       overruns. FinCEN senior management impeded the duties of the
                       project manager (PM) and contracting officer (CO) 7 by
                       inappropriately allowing the PSC, who had no information
                       technology experience, project management expertise, or authority,
                       to usurp the duties of the PM and CO. Also, FinCEN management

7
 COs have the authority to enter into, administer, and/or terminate contracts and make related
determinations and findings.

                       The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 7
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                      failed to properly monitor the BSA Direct R&S development effort
                      or report to Treasury’s OCIO on the status of the project. In
                      addition, FinCEN hired MITRE to oversee project development
                      through IV&V, but over time discounted MITRE’s input and
                      excluded MITRE from progress meetings. Treasury’s OCIO also did
                      not actively oversee the project and allowed FinCEN to exclude
                      OCIO representatives from progress meetings. Furthermore, when
                      EDS performance problems could not be ignored any longer,
                      FinCEN senior management did not take timely or strong action to
                      resolve them.

                      GAO has identified efficient and effective project management as a
                      necessary best practice for any information technology business
                      systems acquisition. Project management is the process for
                      planning, organizing, staffing, directing, and managing all project-
                      office-related activities. Project management begins when the
                      project office is formed and ends when the acquisition is
                      completed. 8 Moreover, the Project Management Institute, the
                      leading membership organization of project management
                      professionals in the world, has determined that effectively
                      managing a project requires the application of knowledge, skills,
                      tools, and techniques to a range of activities in order to meet
                      predefined objectives within scope, quality, time, and cost
                      constraints.

                      FinCEN Senior Management Limited the Roles of Key Project
                      Officials and Elevated the Role of the PSC

                      The PM is responsible for initiating, planning, executing,
                      monitoring, controlling, and completing the project. FinCEN’s PM
                      on BSA Direct R&S believed that she lacked the support of senior
                      management to make major project decisions. 9 For example, she
                      said she was not allowed to decide who would attend meetings
                      with EDS and was even excluded from some of those meetings.
                      Further hampering the PM’s role was the fact that so many
                      different people at FinCEN were providing direction to EDS.

8
  GAO, Information Technology: DOD’s Acquisition Policies and Guidance Need to Incorporate
Additional Best Practices and Controls, GAO-04-722 (July 2004).
9
  BSA Direct R&S actually had three FinCEN employee PMs over the life of the project. The reference
  here is to the third PM, who served in that role from spring 2005 to the project’s termination.

                      The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 8
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                     The PM’s role was so minimized that in April 2005, she was even
                     admonished by the PSC for sending FinCEN’s former Director
                     information regarding input from IRS’s Criminal Investigations
                     Division for user requirements and for questioning the October
                     2005 timeframe for completing the BSA Direct R&S project. She
                     received an e-mail from the PSC the next day strongly suggesting
                     that she avoid sending e-mails to the Director.

                     In July 2005, MITRE reported that schedule slippage, cost
                     overruns, and poor project performance resulted from weak project
                     management and controls. MITRE reported the same in October
                     2005, the month originally set for project deployment. The
                     schedule continued to slip, task items were not being tracked, and
                     project issues and action items were not being managed or
                     resolved timely. In both August and November 2005, MITRE
                     reported that the pattern of repeated slippage and weak program
                     management was intensifying its concerns about EDS’s capacity to
                     deliver as planned. MITRE’s program manager told us that MITRE
                     provided recommendations for improving key processes, discipline,
                     and oversight of EDS. 10 According to MITRE’s program manager,
                     FinCEN’s PM was receptive to MITRE’s work but lacked authority
                     to make changes.

                     The CO Expressed Concern About Others Providing Direction on
                     Contract Issues to EDS

                     The CO for the BSA Direct R&S contract was concerned that
                     FinCEN personnel, other than him, were inappropriately giving EDS
                     direction regarding contract issues. In one e-mail, the CO expressed
                     concern that the PM had given improper direction to EDS regarding
                     contract issues, ignoring instructions that he had given about the
                     same matter. In another e-mail, the CO provided similar comments
                     to the PM regarding a letter to the contractor she had drafted that
                     set forth various expectations.




10
  MITRE had both a PM and a program manager assigned to BSA Direct R&S. The PM reported to the
program manager.

                     The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 9
                     Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                      The CO said that for a time FinCEN’s senior management
                      prevented him from raising his concerns about the project to
                      FinCEN’s legal counsel. He told us that the contracting office was
                      made irrelevant and that FinCEN officials closest to the Director of
                      FinCEN were holding discussions directly with EDS about
                      requirements under the contract.

                      In fact, early in the project, during the fall of 2004, the CO began
                      expressing concerns to FinCEN senior management about the
                      project and wanted to issue a “cure notice.” 11 He cautioned that
                      not addressing the issues with EDS regarding the quality and
                      timeliness of deliverables in a timely manner would diminish
                      FinCEN’s ability to protect its interests going forward. In short,
                      the CO wanted to address the issues in writing as soon as
                      possible and reestablish delivery dates. FinCEN’s senior
                      management objected to the plan and no cure notice or other
                      formal notification was issued. Given the contract issues involved,
                      we believe that it was a mistake not to issue the cure notice as
                      had been recommended by the CO.

                      The PSC Provided Direction On and Made Numerous Decisions
                      Concerning BSA Direct R&S

                      The PSC served as the former Director’s point of contact on BSA
                      Direct R&S. 12 The PSC was a member of the evaluation team,
                      prepared and maintained the project’s risk management plan, and
                      dealt extensively with the user requirements process. According to
                      FinCEN documentation, the PSC was the individual most
                      responsible for defining the project, explaining the concept, and
                      dealing with daily project issues. He was perceived by EDS to have


11
   Federal Acquisition Regulation (FAR), part 49, provides guidance on the procedures federal agencies
are to follow when they seek to terminate a contract due to vendor default. Either a cure notice or a
show cause notice is used to convey to the vendor that the government considers the contract to be in
default and that termination of the contract is imminent unless the default conditions are cured or an
acceptable reason for the cause of default is provided within 10 days.
12
   The PSC, a retired federal law enforcement officer, was under a 5-year personal contract with FinCEN
that began in December 2004. According to his personnel file at FinCEN, he did not have prior
experience in the acquisition, development, or project management of major IT systems or applications.
After the former Director left FinCEN to take a job with a major bank, the PSC also left and went to
work for the same bank.

                      The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 10
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       more authority than the PM and the contracting officer’s technical
                       representative (COTR). 13

                       In an interview, the PSC acknowledged that he was very involved
                       in the BSA Direct R&S project, although he emphasized that he
                       was not the PM. He told us that he communicated often with
                       project participants, including EDS, but his role was as a
                       consultant, not a decision maker.

                       However, documentation we reviewed showed that the PSC in fact
                       did provide direction and made decisions on a wide range of
                       matters relating to BSA Direct R&S. We found that the PSC

                           •   provided direction to EDS regarding the scope of work and
                               changes in the delivery schedule;

                           •   recommended that the PM accept the contractor’s revised
                               schedule;

                           •   advised the senior adviser to Treasury’s Under Secretary for
                               Terrorism and Financial Intelligence that if funding was not
                               provided for the project, FinCEN would reallocate funds at
                               the expense of other programs;

                           •   opined on the reasonableness of EDS’s proposed fees for a
                               significant contract modification to add Gateway, a
                               $1 million obligation, contrary to the CO’s position and
                               direction; 14

                           •   met with EDS’s PM and discussed the possibility of adding
                               information to each monthly brief, including language to the
                               effect that EDS expected to exceed contract requirements
                               and would develop a system that had an estimated capacity
                               of 400 concurrent users at each site; and

13
   A COTR’s role is to ensure government-contractor business relationships are mutually beneficial and
provide exactly those products and services the government needs. To fulfill the role, the COTR is a
technical information conduit, contracting and regulatory liaison, and business partnership manager.
14
   Gateway allows FinCEN to identify and track users who access BSA data and allows law enforcement
and intelligence users to coordinate their investigations and share information. See p. 29 of this report
for further discussion of Gateway.

                       The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 11
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                          •   had direct access to EDS officials through meetings and
                              e-mails, which in many instances provided contract direction.

                      In fact, the role and authority of the PSC was even questioned by
                      EDS. Specifically, EDS’s PM wrote to FinCEN’s COTR in July 2005
                      expressing concern that the PSC’s involvement could affect BSA
                      Direct R&S. She asked about the PSC’s involvement and
                      emphasized that the COTR should be the point of contact for
                      contract issues. In October 2005, FinCEN’s PM also communicated
                      her concern to FinCEN’s CO about the PSC’s communications with
                      EDS.

                      When we asked about the role of the PSC, the former Director told
                      us that the PCS oversaw BSA Direct R&S and served as his “eyes”
                      on the project. He said the PSC was a conduit of information,
                      offering advice, counsel, and guidance to the team, but was not
                      the PM.

                      We understand the desire by the former Director for an
                      independent assessment of the project development activities.
                      However, we believe that the authority of the FinCEN’s CO, PM,
                      COTR and other FinCEN employees were undermined by the duties
                      assigned to the PSC and the perceived if not actual authority of
                      that individual. We also believe that the PSC was essentially
                      duplicating what was the appropriate role of MITRE, and the PSC
                      was not qualified in that capacity.

                      FinCEN Did Not Adequately Monitor BSA Direct R&S

                      FinCEN did not maintain a contract file for BSA Direct R&S, a
                      fundamental FAR requirement. FinCEN also did not effectively
                      apply earned value management (EVM) 15 reporting to monitor the
                      system development effort or ensure a positive return on its
                      investment.




15
  EVM analysis measures actual work performed against a project’s baseline plan (milestones) and
actual costs against budgeted costs.

                      The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 12
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                         Key Project Documents Were Not Retained in a Consolidated
                         Contract File

                         According to the FAR, the head of each contracting office is to
                         establish files of all contractual actions. 16 The documentation is to
                         provide a contractual history for the purpose of (1) providing a
                         complete background as a basis for informed decisions at each
                         step in the acquisition process, (2) supporting actions taken,
                         (3) providing information for reviews and investigations, and
                         (4) furnishing essential facts in the event of litigation or
                         congressional inquiries. The FAR also states that if the contract
                         files or file segments are decentralized, responsibility for their
                         maintenance must be assigned.

                         FinCEN did not maintain an official contract file for the project. In
                         fact, we were informed by FinCEN that they had no written internal
                         policy for capital acquisitions and no documented contract
                         oversight plan. FinCEN also could not provide us with written
                         project management processes and procedures. The records
                         FinCEN maintained for BSA Direct R&S were fragmented and
                         decentralized, with no single point of accountability. After we
                         repeatedly requested the contract file, FinCEN provided us with an
                         unofficial, recreated contract file in April 2007, 11 months after
                         our initial request (and after we informed FinCEN what should be
                         included in the file). FinCEN’s Acting Bureau Chief Procurement
                         Officer initially told us that the Bureau of the Public Debt was
                         FinCEN’s contracting service provider and was responsible for
                         maintaining the contract file, while Bureau of the Public Debt
                         officials told us that it was FinCEN’s responsibility. Regardless, the
                         file FinCEN gave us was incomplete and missing key required
                         documentation such as documents related to pre-solicitation,
                         solicitation, pre-award, post-award, and contract administration,
                         and to contract, delivery order, and task order closeout.

                         EVM and Other Progress Reporting Was Not Accurate

                         EDS was contractually required to provide monthly project status
                         reports and briefings for FinCEN that included EVM analysis. EDS

16
     FAR, subpart 4.8.

                         The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 13
                         Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                      did not report its EVM analysis for the first 6 months of the project
                      because FinCEN and EDS could not agree on a baseline schedule
                      for the period.

                      EDS presented its first EVM analysis to FinCEN in January 2005.
                      MITRE evaluated this and other reports and found deficiencies. For
                      example, the EVM report did not correlate with the schedule
                      slippage experienced during the project. Furthermore, based on
                      FinCEN’s monthly meetings with EDS, MITRE found the contractor
                      to be unfamiliar with the metrics and criteria used to calculate
                      earned value.

                      We also reviewed the April 2004 and June 2005 Exhibit 300s 17
                      prepared by FinCEN to report to OMB on the project’s progress.
                      The Exhibit 300s called for FinCEN to assign a risk rating (high,
                      medium, or low) to various risk areas and describe the identified
                      risks and related mitigation strategy. We concluded that FinCEN
                      minimized the severity of risks associated with the project in its
                      reporting to OMB. For example, FinCEN assigned a risk rating of
                      medium to the project management risk area in both the April 2004
                      and June 2005 Exhibit 300s. To mitigate the risk, FinCEN stated in
                      the April 2004 Exhibit 300 that it had assigned a strong team of
                      experienced personnel with required skills to manage the project.
                      As discussed in our report, this was not the case.

                      Additionally, FinCEN assigned a risk rating of low to the overall
                      project failure risk area in both Exhibit 300s. It identified as a
                      specific potential risk in the April 2004 Exhibit 300 that the
                      project’s costs had been underestimated due to inadequate initial
                      requirements analysis. FinCEN reported that this specific risk was
                      mitigated by market research, the development and testing of a
                      prototype, and close monitoring of project tasks, costs, and
                      schedule by an IV&V contractor. As discussed in our report, the
                      project costs significantly escalated during the life of the project
                      and findings by the IV&V contractor (MITRE) were minimized or
                      ignored by FinCEN.

17
  The Exhibit 300 is a capital plan and case summary to demonstrate to agency management and OMB
a strong business case for the investment and to meet other Administration priorities to define the
proposed cost, schedule, and performance goals. Major investments, as identified by OMB, must be
reported in an Exhibit 300 which is to be updated annually.

                      The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 14
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Treasury’s OCIO relied on FinCEN reporting and was therefore not
made aware through the reports submitted by FinCEN of the extent
of system development problems that were occurring. FinCEN’s
reports improperly showed the project to be within cost, schedule,
and performance targets through the first quarter of 2006.

EDS Had Problems Meeting Security Clearance Requirements for
BSA Direct R&S Project Staff Which Contributed to Project Delays

Contributing to BSA Direct R&S delays was EDS’s inability to
properly staff the project because certain personnel lacked the
security clearances required by the contract. EDS officials told us
that EDS found people meeting the requisite technical skills for the
project, but could not obtain their clearances in a timely manner.

To facilitate the security clearance process, FinCEN made certain
accommodations for EDS. At the time of the BSA Direct request
for proposal (RFP), FinCEN’s security clearance requirement for
both government employees and contractor personnel was Top
Secret. That requirement was later reduced to Secret. After the
contract award in June 2004, the contract was modified in April
2005 to allow EDS personnel with an interim Secret clearance
(pending a full background investigation) to work on the project.

According to MITRE’s monthly status reports, EDS continued to
have problems staffing the project with properly cleared individuals
during the contract period. FinCEN documentation we reviewed
showed evidence that FinCEN officials had concerns about the
security clearance accommodation given to EDS, and tried to
resolve the matter with EDS. Additionally, based on EDS records, a
background investigation had not been completed for 14 of the 21
EDS personnel assigned to the contract as late as January 2005. It
should be noted that the available documentation was very
incomplete about the extent to which matters involving security
clearances impacted project delays.




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 15
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
FinCEN Management Did Not Accept MITRE’s Warnings of
Problems

Throughout system development, MITRE frequently expressed
significant concerns in its monthly progress reports about EDS’s
capability to perform the work and meet project deadlines, but
FinCEN discounted those concerns. In several instances, senior
FinCEN management asked MITRE to change its assessments of
EDS’s performance and progress. Similarly, FinCEN senior
management told its own project management team to downplay
negative information and accentuate positive information in its
assessments of EDS’s performance and progress.

FinCEN Did Not Use MITRE’s Reports on BSA Direct R&S and
Questioned Its Recommendations

FinCEN hired MITRE to perform IV&V of EDS’s development efforts
and results beginning in October 2004. According to MITRE, a
spirit of collaboration between MITRE and FinCEN was lacking from
the start.

MITRE questioned a number of things about the project from the
beginning. MITRE reported EDS needed a complete schedule and
plan with well-defined milestones and scope for the project. MITRE
also reported that FinCEN had an immature project management
and information technology discipline.

According to MITRE, on more than one occasion FinCEN expressed
concern over MITRE’s identification of high-risk areas in BSA Direct
R&S and questioned MITRE’s recommendations. MITRE’s PM told
us that FinCEN’s PSC asked her to remove the high-risk label from
the MITRE status report, but she refused.

We asked the PSC about MITRE’s reporting on the project. All the
PSC would tell us is that MITRE was always “gloom and doom” on
the outlook of BSA Direct R&S.




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 16
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                      MITRE’s Concerns About System Issues and Project Delays Were
                      Not Heeded by EDS or FinCEN Senior Management

                      MITRE officials told us that its analysis of the project indicated the
                      earliest possible deployment date of the project was January 2006,
                      not October 2005. MITRE advised FinCEN’s former Director of that
                      in an April 2005 program review meeting. Among MITRE’s
                      concerns were EDS’s persistent staffing shortfalls and the fact that
                      as early as March 2005, the project already had a 9 percent cost
                      overrun. MITRE believed that FinCEN and EDS needed to take
                      immediate steps to avoid compromising the project.

                      In August 2005, MITRE reported that EDS had not been able to
                      meet most agreed-upon deadlines, thereby missing several
                      milestones and causing continued schedule changes. MITRE also
                      raised the issue that its staff was being deliberately excluded in the
                      review and analysis of the proposed schedule.

                      FinCEN senior management did not heed concerns from MITRE or
                      its own project personnel. As a result, FinCEN did not take the
                      actions necessary to address the issues raised by MITRE that
                      plagued the project from the beginning.

                      MITRE Was Excluded From Key Status Meetings and Was Told Not
                      to Ask Questions of EDS

                      In September 2005, 1 month before the project was scheduled for
                      deployment, MITRE reported to FinCEN that BSA Direct R&S
                      program management had not always included MITRE as a
                      participant or observer in meetings, discussions, or working
                      sessions. 18 MITRE also reported that program management and
                      control continued to suffer on BSA Direct R&S.

                      MITRE officials also told us that EDS did not want MITRE on site to
                      view or evaluate the system. When MITRE was able to finally test
                      the system, it found that the system’s response time was


18
  According to the statement of work for MITRE’s contract, MITRE was to participate in key working
sessions for architecture, requirements, and design in order to validate and monitor the technical
development and implementation of BSA Direct.

                      The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 17
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       extremely slow. MITRE observed severity 1 problems in testing. 19
                       For the project to move forward, severity 1 problems had to be
                       corrected.

                       Furthermore, FinCEN officials told MITRE not to attend meetings
                       between FinCEN and EDS. Before MITRE was excluded, one
                       FinCEN official told MITRE not to ask questions of EDS. Both these
                       instructions were odd considering MITRE was hired by FinCEN as
                       the project’s IV&V contractor. FinCEN’s PSC also instructed MITRE
                       not to send e-mails to the FinCEN Director.

                       Treasury’s OCIO Did Not Actively Oversee the Project

                       The Clinger-Cohen Act of 1996 requires that the chief information
                       officer (CIO) for an agency monitor the performance of information
                       technology programs of the agency, evaluate the performance of
                       those programs on the basis of the applicable performance
                       measurements, and advise the head of the agency regarding
                       whether to continue, modify, or terminate a program or project.
                       The act provides Treasury’s CIO with responsibility over the
                       bureau’s CIO but does not provide commensurate supervisory
                       authority. The act also provides for establishing milestones for
                       information technology projects and places responsibility for such
                       projects with the agency’s CIO.

                       To comply with the act, the Treasury CIO assigned a desk officer
                       to FinCEN to monitor BSA Direct R&S. We found, however, that
                       the desk officer did not actively oversee the project and instead
                       relied on FinCEN progress reports and periodic meetings. The desk
                       officer eventually began to suspect problems with the project.
                       However, when she started asking questions about the project,
                       FinCEN excluded her from future project meetings.


19
  MITRE defines the term severity as the value assigned to the consequence of failing to achieve a
system life cycle objective. EDS defined severity as follows: severity 1—we cannot make it to User
Acceptance Test until the issue is resolved; severity 2—we can make it to the User Acceptance Test,
but cannot go live with the unresolved issue; severity 3—we can go live with this issue, but it must be
resolved as soon as possible; severity 4—we can go live with this issue, but it should be resolved as
soon as possible; severity 5—we need to resolve this issue, but an acceptable workaround is in place.


                       The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 18
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Rather Than Take Strong Action, FinCEN Issued EDS a Letter of
Concern When Performance Problems Became Evident

In the spring of 2005, FinCEN’s counsel advised FinCEN’s former
Director that FinCEN needed to confront EDS about a number of
contractual problems. However, because FinCEN allowed work to
continue under the contract for so long without taking action
against EDS, it had determined that it had constructively waived its
right to terminate for default the contract with EDS. Consequently,
counsel recommended that, in order to preserve contractual rights
going forward, FinCEN enter into a modification to the contract.
The modification would establish new deadlines for the outstanding
deliverables.

Instead of sending EDS a “cure notice,” as the CO had
recommended in the fall of 2004, or modify the contract as
recommended by counsel, FinCEN sent EDS a letter expressing
FinCEN’s “heightened level of concern” in June 2005. Unlike a
cure notice, the letter did not state that the government intended
to terminate the contract for default or ask EDS to show cause
why the contract should not be terminated. Rather, the purpose of
the letter was to advise EDS of FinCEN’s heightened level of
concern in the contractor’s ability to successfully manage and
deliver BSA Direct R&S.

The letter stated that FinCEN expected EDS to deliver a fully
functional and tested system as required by the contract no later
than October 14, 2005. EDS was to advise FinCEN in writing
within 10 calendar days of the letter’s date of its plan to meet its
contractual obligations and to provide a revised delivery schedule
within the confines of the contractually mandated final delivery
date of October 14, 2005. The letter further stated that failure to
address the issues brought forth in the letter could be cause for
subsequent action by FinCEN.

EDS responded by submitting a proposed revision to the BSA
Direct R&S schedule. The proposal was to deliver Iteration 2 in




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 19
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       August 2005 and Iteration 3 by October 14, 2005. 20 The PSC
                       recommended that FinCEN’s PM accept the schedule and that
                       further dialogue about the schedule would be counterproductive.
                       The schedule was accepted but followed later by new proposals
                       to revise the schedule again and again.

                       As to why FinCEN chose not send a cure notice to EDS, a FinCEN
                       official told us that FinCEN senior management believed that doing
                       so would have had a negative effect on the project and been
                       counterproductive.

                       EDS once again failed to meet the revised project schedule but
                       FinCEN opted not to issue a cure notice. A FinCEN official told us
                       that the decision was made because EDS was close to resolving
                       performance issues—which ultimately proved not to be the case.
                       FinCEN’s former Director told us that FinCEN attorneys had argued
                       for the letter, but he knew all work on the project would have
                       stopped if FinCEN had issued a cure notice. This is a very
                       surprising position for a senior official to take in that we believe it
                       is paramount for a government agency to vigorously enforce its
                       contractual rights to ensure, among other things, the proper
                       stewardship over public monies being expended on the goods and
                       services the contractor is obligated to provide.

Finding 2              FinCEN Did Not Adequately Plan the BSA Direct R&S
                       Project

                       FinCEN did not properly plan for BSA Direct R&S. Among other
                       things, FinCEN did not adequately coordinate with IRS or
                       Treasury’s OCIO to determine whether this system would duplicate
                       IRS’s Web-based Currency and Banking Retrieval System
                       (WebCBRS) system development project. FinCEN also did not


20
   The development phase of BSA Direct R&S was to have had three iterations. In the first iteration,
data would be gathered and enhanced with limited system functionality; in the second, the system
would connect and transfer BSA data, resulting in additional functionality; and in the third, the system
would have the capability for more functionality and problems would be resolved for rollout of the
system. FinCEN was never able to produce for our review a signed document that Iteration 1 was
approved and the date it was approved, but asserted in an e-mail to us that the COTR had approved the
iteration on August 31, 2005.

                       The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 20
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                     properly determine system functional requirements or user needs
                     prior to awarding the contract.

                     FinCEN Did Not Adequately Coordinate With IRS or Treasury’s
                     OCIO on Duplication Between BSA Direct R&S and WebCBRS

                     At the time of the BSA Direct R&S contract award, IRS was
                     developing a very similar system—WebCBRS. Project-related
                     documentation indicated that FinCEN wanted to control BSA data
                     and implement BSA Direct R&S before IRS could implement
                     WebCBRS. Treasury’s OCIO accepted FinCEN’s opinion that BSA
                     Direct R&S and WebCBRS were not duplicative systems. After the
                     BSA Direct R&S development effort was terminated, FinCEN found
                     WebCBRS to be an acceptable alternative for BSA data users.

                     IRS Was Already Developing WebCBRS When the Contract for BSA
                     Direct R&S Was Awarded

                     IRS began WebCBRS development in March 2003. Several months
                     later, in October 2003, FinCEN provided plans to OMB to develop
                     BSA Direct R&S. In June 2004, FinCEN awarded EDS the contract
                     to develop BSA Direct R&S. FinCEN’s position was that BSA Direct
                     R&S offered more sophisticated analytical tools and would be
                     implemented sooner than WebCBRS. However, as noted in a
                     December 2006 GAO report, FinCEN did not adequately
                     communicate and coordinate its BSA data management
                     reengineering efforts with IRS. GAO recommended that FinCEN, in
                     cooperation with IRS, develop a long-term plan before moving
                     forward with BSA Direct R&S. 21

                     Documentation we obtained showed that FinCEN knew as early as
                     December 2003 that IRS was creating a new database system.
                     Although IRS estimated a completion date of 2009 at the time, IRS
                     sent a letter to FinCEN in February 2004 that formally changed the
                     completion date to 2005. FinCEN’s former Director said he
                     attended a WebCBRS briefing at IRS in Detroit in May 2004, but



21
  GAO, Bank Secrecy Act: FinCEN and IRS Need to Improve and Better Coordinate Compliance and
Data Management Efforts, GAO-07-212 (Dec. 15, 2006).

                     The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 21
                     Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                     decided to move forward with BSA Direct R&S because he
                     considered the control of BSA data as crucial to FinCEN.

                     Treasury’s OCIO Did Not Fully Explore the Issue of System
                     Duplication with IRS

                     The Conference Report (H.R. 108-792) for FinCEN’s fiscal year
                     2005 appropriation included language that restricted FinCEN’s use
                     of fiscal year 2005 funds for BSA Direct R&S until Congress
                     received a letter from Treasury certifying that BSA Direct R&S was
                     the only system that would provide general access to BSA data. 22
                     In a December 7, 2004, memorandum to the Deputy Secretary, the
                     Treasury CIO at the time recommended that the Secretary sign a
                     letter certifying that the FinCEN BSA Direct R&S development
                     program was the only effort of its kind within the department.

                     In that memorandum, the former Treasury CIO summarized a
                     September 2004 meeting between the FinCEN Director and the IRS
                     Commissioner, agreeing to eliminate any redundancies between
                     BSA Direct R&S and the existing IRS systems. The CIO went on to
                     outline the steps to eliminate the duplication. With that
                     recommendation, the Treasury Secretary certified in a letter to
                     Congress dated December 9, 2004, prepared by the CIO, that
                     FinCEN’s BSA Direct R&S development program was the only
                     effort of its kind within the Department. In our opinion, the
                     information the CIO provided to the Deputy Secretary, which was
                     relied on for the Secretary’s certification to Congress, was not
                     accurate.

                     We attempted to interview the former Treasury CIO who made that
                     recommendation for clarification about his memorandum to the
                     Secretary, and his office’s oversight of the project. The former
                     CIO, who had retired from federal service, accepted our initial
                     interview request but later canceled and did not respond to
                     subsequent interview requests.




22
  Senate Committee on Appropriations Report 108-342, Transportation, Treasury and General
Government Appropriations Bill, 2005.

                     The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 22
                     Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                          FinCEN Implements IRS’s WebCBRS System for Accessing BSA
                          Data

                          After stopping work on BSA Direct R&S in March 2006, FinCEN,
                          under the leadership of a new Director, determined that WebCBRS
                          was sufficiently suitable to meet the needs of the large majority of
                          its database users. FinCEN’s customers began using WebCBRS in
                          fiscal year 2007 and FinCEN received a customer satisfaction
                          rating of 81 percent for the system in 2008 and 74 percent in
                          2009. According to FinCEN, the cost to FinCEN to add FinCEN
                          users to WebCBRS, including training and end-user support, was
                          $300,000.

                          FinCEN Did Not Properly Define Functional Requirements and User
                          Needs

                          Federal agencies are required to adequately define system
                          functional requirements and user needs before initiating a
                          development project. FinCEN did not sufficiently obtain customer
                          input when defining the functional requirements for BSA Direct
                          R&S.

                          Customer Involvement Is Required in Defining User Needs

                          The FAR states, among other things, that the acquisition team
                          should include the customers being served and the contractors
                          providing the products and services. 23 Furthermore, Clinger-Cohen
                          requires an acquisition plan that defines the functional requirements
                          of the information technology’s intended users. Finally, Treasury’s
                          Information System Life Cycle Manual requires that an integrated
                          project team be established to define a system’s functional
                          requirements. 24

                          The acquisition plan for BSA Direct R&S did not adequately discuss
                          all elements required by the FAR, including all the milestones for
                          the acquisition cycle. It should be noted that FinCEN provided us
                          with only a draft acquisition plan. Although FinCEN said the draft

23
     FAR, subpart 1.102(c).
24
     Treasury Directive Publication 84-01, p. 8.

                          The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 23
                          Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                      was the final version, the document was clearly labeled draft and
                      did not bear the CO’s signature, as required by the Department of
                      the Treasury Acquisition Regulation (D-TAR). 25

                      Users Were Not Adequately Consulted and Functional
                      Requirements Were Not Fully Defined

                      FinCEN prepared a preliminary analysis of BSA Direct R&S user
                      needs in July 2004. However, the preliminary analysis lacked
                      sufficient detail to accurately scope and plan the work. FinCEN
                      expected EDS to conduct in-depth user sessions to augment its
                      preliminary analysis. EDS, however, based its requirements for the
                      first phase of the project only on limited user requirements
                      sessions. Representatives from EDS told us that FinCEN should
                      have more accurately defined user requirements and said that it
                      was FinCEN’s responsibility, not EDS’s, to consult with users.

                      FinCEN’s former Director told us that the intent was to take the
                      preliminary analysis and follow up with users to fully determine
                      their needs. He did not know why that was not done.

                      After the project was under way, FinCEN learned that certain users
                      had not been adequately consulted about their needs. For example,

                          •   Approximately 1 year after beginning the BSA Direct R&S
                              project, FinCEN met with Office of the Comptroller of the
                              Currency representatives to present a demonstration of BSA
                              Direct R&S. During the presentation, it was discovered that
                              FinCEN did not have a full understanding of the bank
                              regulator’s needs.

                          •   In February 2005, IRS informed FinCEN that IRS’s Small
                              Business/Self-Employed Division was excluded from user
                              needs discussions. IRS was concerned that no one from BSA
                              Direct R&S had contacted IRS about its requirements. IRS’s
                              Small Business/Self-Employed Division had more than 1,300
                              users.

25
  The D-TAR contains Treasury acquisition and procurement policy that implements and supplements
the FAR. FinCEN is required to adhere to the policies and procedures of both the FAR and the D-TAR.

                      The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 24
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       Among other things, FinCEN believed that BSA Direct R&S would
                       eliminate the need to give bulk downloads of BSA data to users
                       such as the Federal Bureau of Investigation and U.S. Secret
                       Service. 26 However, FinCEN did not fully consult with them either.
                       As a result, we learned that these downloads would still be
                       provided. BSA Direct R&S was also supposed to provide data
                       cleansing. 27 FinCEN may have oversold this benefit because certain
                       users find value in looking at the irregularities in uncleansed data.

                       Lack of Understanding of BSA Data Complexity and Unclear
                       Expectations Delayed the Project’s Development

                       Before the contract was awarded, neither EDS nor FinCEN fully
                       understood the complexity and size of BSA data and how those
                       factors would affect system development. For example, the format
                       of the data and the size of the database presented difficulties in
                       creating a data warehouse. EDS project officials told us that the
                       actual amount of data to be cleansed was twice the amount stated
                       in the RFP.

                       EDS officials said that there were many misunderstandings about
                       the requirements in the SOW and that FinCEN officials often
                       changed their minds about what they wanted. According to EDS,
                       FinCEN’s frequent changes to system requirements affected the
                       project’s time schedule and increased the project’s cost and risk.

                       For example, FinCEN and EDS officials had different interpretations
                       of the 5-second response time requirement in the contract. EDS
                       explained that the contract required that the system would provide
                       users with an estimate of how long the search would take within 5
                       seconds of launching a search. FinCEN officials disagreed with that
                       interpretation and wanted a search completion time of 5 seconds.
                       According to EDS officials, what FinCEN wanted was impossible.




26
 Bulk downloads are transfers of entire BSA data sets or large subsets to a user’s site.
27
 Data cleansing refers to technologies used to enhance the integrity and validity of data in a database
management system.

                       The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 25
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                      When asked if there was anything FinCEN could have done
                      differently to help EDS meet the October 14, 2005, deadline for
                      completing the project, EDS officials said that FinCEN should have
                      identified the business users so the contractor could have worked
                      with them directly when developing the system. In addition,
                      FinCEN could have had a stronger technical team, held EDS only to
                      the requirements in the original SOW, provided better leadership,
                      and made fewer changes to system requirements.

                      EDS purchased equipment and software for BSA Direct R&S
                      immediately after the contract was awarded without having final
                      user requirements. For example, purchase orders showed that EDS
                      took delivery of about $500,000 in computer software less than
                      30 days after the contract award and before developing the
                      concept of operation 28 and meeting with users to determine
                      requirements. In an internal e-mail to project team members, a
                      FinCEN official questioned purchasing all of the hardware and
                      software before completing the requirements analysis. Unforeseen
                      requirements and enhancements resulted in about $1 million in
                      additional hardware and software costs. To cover these costs,
                      FinCEN postponed planned regulatory outreach and other
                      information technology efforts.

                      Project Completion Date Was Unrealistic and Deadlines Continued
                      to Change

                      EDS was under contract to provide a complete and tested system
                      to FinCEN no later than October 14, 2005. This schedule was
                      unrealistic.

                      In November 2004, just 1 month after beginning IV&V services,
                      MITRE reported to FinCEN that the project was chaotic and
                      expressed concern over a number of things, most notably
                      deliverables that were already past due. Moreover, MITRE reported
                      that EDS did not have a process to conduct and approve reviews,
                      changes, and releases. As the project progressed, MITRE reported
                      that EDS’s pattern of schedule slippages and its lack of staff with

28
  The concept of operation is a document used to guide the analysis, design, and development of the
system.

                      The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 26
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       requisite system engineering skills intensified its concerns about
                       EDS’s capacity to deliver a system. MITRE also reported its
                       increased concerns about the IRS Database Platform Migration
                       Plan 29 and schedule changes.

                       FinCEN did not document the inspection and acceptance of
                       deliverables for adherence to contract requirements, or have
                       written policies and procedures for inspecting and accepting
                       information technology work. The D-TAR states that the contract
                       file documentation should contain inspection, acceptance, and
                       receiving reports. It also states that an authorized government
                       representative should sign off that all requirements have been
                       inspected, received, and accepted, and that the work met the
                       terms of the contract.

                       MITRE recommended that FinCEN develop BSA Direct R&S
                       acceptance criteria and in June 2005 gave FinCEN a draft set for
                       review. 30 According to MITRE, agreed-upon acceptance criteria
                       were critical to ensure that BSA Direct R&S system implementation
                       and deployment met requirements. Over the next 6 months,
                       through December 2005, MITRE continually recommended in its
                       monthly progress reports that FinCEN engage EDS in discussions
                       regarding the development of acceptance criteria.

                       Although we were told FinCEN accepted Iteration 1 of BSA Direct
                       R&S (this iteration refers to the gathering and enhancement of data
                       with limited system functionality) on August 31, 2005, FinCEN
                       continued testing it into mid-September 2005. As a result, EDS
                       started working on Iteration 2 before Iteration 1 problems had been
                       resolved. We asked FinCEN for documentation showing acceptance
                       of Iteration 1, but FinCEN did not provide it and we could not
                       determine if FinCEN ever documented its acceptance of Iteration 1.

                       Furthermore, EDS revised its estimated completion date of Iteration
                       2 by 9 months, from July 2005 to April 2006. Additionally,
                       Iteration 3 was also pushed-back 6 months, from October 2005 to

29
   MITRE said it was critical that FinCEN have a back-up plan for business continuity if IRS’s old system
was terminated before BSA Direct R&S became operational.
30
   FAR, subpart 46.501, states that acceptance constitutes acknowledgment that the supplies or
services conform to applicable contract quality and quantity requirements.

                       The Failed and Costly BSA Direct R&S System Development Effort Provides    Page 27
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                      April 2006. Ultimately, EDS proposed combining Iterations 2 and 3
                      after requirements were reduced. BSA Direct R&S delivery was to
                      culminate upon completion of Iteration 3. Neither iteration 2 nor 3
                      had been delivered when the stop work order was issued in March
                      2006.

                      A contractor, i2S, hired by FinCEN to provide a review and analysis
                      of the project from inception through the stop-work order, reported
                      that Iteration 1 functionality was less than FinCEN anticipated and
                      that its performance was notably slow, with some queries taking
                      up to tens of minutes to complete. Additionally, the data provided
                      was considered inadequate. Iteration 1 was to have 10-plus years
                      of historical data; however, it contained less than one percent of
                      that amount.

                      i2S also found that during the course of the contract, FinCEN
                      added tasks, which were agreed to by EDS, without modifying the
                      final delivery date. FinCEN moved the final delivery date with a
                      contract modification dated September 12, 2005, which changed
                      the delivery date from October 14, 2005, for full operating
                      capacity to January 25, 2006, for initial operating capacity. Under
                      the modification, Iteration 2 was scheduled to be delivered on
                      January 25, 2006, and Iteration 3 was scheduled to be delivered
                      on April 28, 2006. As discussed above, however, EDS proposed to
                      combine Iterations 2 and 3 when system requirements were
                      reduced, resulting in an April 2006 final delivery date.

                      i2S reported that the major issues it uncovered were poor
                      requirements analysis and definition, and major disagreements
                      between EDS and FinCEN about key areas of the program,
                      including query definition and system performance. According to
                      i2S, EDS asserted FinCEN and MITRE had pushed EDS to
                      implement a “final” data model at a stage it considered premature.
                      Overall, i2S concluded that there was lack of a common
                      understanding of requirements between FinCEN and EDS
                      throughout the project. 31



31
  BSA Direct Review and Report, Prepared for Financial Crimes Enforcement Network (FinCEN) of the
US Treasury, by ideas to Solutions (i2S), June 19, 2006.

                      The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 28
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       Our audit reaffirmed the findings and conclusions of i2S’s review.

                       Gateway Requirements Were not Sufficiently Outlined in the
                       Original Contract

                       Gateway is a FinCEN program that allows law enforcement and
                       intelligence users to coordinate their investigations and share
                       information. The related Gateway technology, Secure Outreach,
                       enables FinCEN to identify and track users who access BSA data,
                       which is important for, among other things, ensuring that sensitive
                       BSA financial data is not misused. FinCEN identified the need to
                       provide for Gateway in the original scope of BSA Direct R&S, but
                       did not include specific requirements. FinCEN added those specific
                       requirements as a contract modification almost a year after the
                       initial contract was awarded. The addition of the Gateway interface
                       increased project costs by approximately $1 million and contributed
                       to major delays.

Finding 3              FinCEN Used Funds from Various Sources to Cover BSA
                       Direct R&S Development Costs

                       FinCEN spent $17.4 million to develop BSA Direct R&S. At the
                       time of the nearly $9 million contract award to EDS in fiscal year
                       2004, FinCEN had only $2 million available, from TFF, to fund the
                       BSA Direct R&S project. To cover the additional contract and other
                       costs of the project, FinCEN used funds from both TFF and its
                       fiscal years 2005 and 2006 appropriations. Because we had
                       concerns about whether FinCEN’s use of funds from these other
                       sources and fiscal years to meet this large cost overrun was
                       appropriate and legal, we referred the matter to GAO for a
                       decision. 32

                       In a June 2009 decision, 33 GAO concluded that FinCEN improperly
                       charged certain obligations to its fiscal year 2005 and 2006
                       appropriations. GAO found this to be a violation of the bona fide
                       needs rule and said FinCEN would have to adjust its accounts to

32
  GAO issues legal decisions and opinions on appropriations law and other issues of federal law.
33
  GAO, Financial Crimes Enforcement Network—Obligations under a Cost-Reimbursement,
Nonseverable Services Contract, B-317139 (Jun. 1, 2009).

                       The Failed and Costly BSA Direct R&S System Development Effort Provides     Page 29
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       correct the violation. The violation centered on GAO’s
                       determination that FinCEN’s contract with EDS was for a
                       nonseverable service 34 thereby requiring that FinCEN obligate the
                       estimated cost of the contract at the time of award from available
                       funds at the time.

                       The adjustments included obligating $6.9 million to appropriations
                       available in fiscal year 2004 (the fiscal year of the contract award
                       to EDS) and deobligating that amount from the fiscal year 2005
                       appropriation. GAO said FinCEN could legally draw on its fiscal year
                       2003 and 2004 appropriations to the extent that there were
                       sufficient unobligated balances still available for costs related to
                       the BSA Direct project. If funds were not available, FinCEN would
                       need to report an antideficiency act violation.

                       FinCEN adjusted its accounts and its fiscal year 2004 and 2005
                       appropriations. FinCEN also asserted in a December 2009
                       management representation letter to KPMG LLP, in connection with
                       its financial statement audit, that there were no known
                       antideficiency act violations. 35

                       Funding Sources Were Uncertain From the Beginning of the Project

                       A FinCEN official told us that budgeting for BSA Direct R&S was
                       challenging from the beginning. Only $2 million was available for
                       BSA Direct R&S when FinCEN awarded EDS the nearly $9 million
                       cost-plus-fixed-fee contract in June 2004 for the design,
                       implementation, and deployment of the system.

                       By not securing full funding at the onset of the project, FinCEN did
                       not follow OMB Circular A-11 principles. 36 According to the
                       circular, when capital projects are incrementally funded, without
                       certainty of if or when future funding will be available, the result is

34
   A nonseverable service is one that requires the contractor to complete and deliver a specific end
product. The general rule is that a nonseverable service is considered a bona fide need at the time the
agency orders the service and, therefore, should be charged to an appropriation current at the time the
agency enters into the contract.
35
   KPMG LLP performed the audit of FinCEN’s 2009 financial statements under the supervision of our
office.
36
   OMB Circular No. A-11, Principles of Budgeting for Capital Assets, part 7, app. J, (2003).

                       The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 30
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       sometimes poor planning, acquisition of assets not fully justified,
                       higher acquisition costs, cancellation of major investments, the loss
                       of sunk costs, or inadequate funding to maintain and operate the
                       assets. In the case of BSA Direct R&S, all these potential adverse
                       consequences happened.

                       In fiscal year 2005, Congress appropriated $7.5 million to fund the
                       ongoing project. In addition, because of the project’s escalating
                       costs, FinCEN found itself using funds for system development that
                       had been intended for other projects.

                       Project Costs Escalated

                       Costs escalated significantly throughout the BSA Direct R&S
                       development effort. The nearly $9 million contract awarded to EDS
                       for the design, implementation, and deployment of BSA Direct R&S
                       increased by about $5.8 million, or 65 percent, to $14.8 million,
                       after adding the costs for additional scope, labor, hardware, and
                       software expenses incurred during system development. The
                       $14.8 million, however, did not include all costs associated with
                       BSA Direct R&S. Nearly $2.6 million in additional costs were
                       incurred that included, for example, the project’s planning phase
                       and MITRE’s services, raising the total to $17.4 million. EDS had
                       been paid $14.2 million by the time the project was finally halted
                       and the contact terminated for convenience of the government on
                       July 13, 2006. 37

                       In January 2008, a negotiated settlement of approximately $14.8
                       million was reached between EDS and FinCEN to terminate the
                       $15.1 million contract obligation. This settlement included all of
                       the fees payable under the contract.

                       Table 1 shows a breakdown of the costs incurred by FinCEN for
                       BSA Direct R&S.


37
  FAR, subpart 49, prescribes contract termination clauses. One clause is termination for convenience
of the government. With this clause, the government may cancel part or all of a contract when a
contractor’s services are no longer needed. The contract is not terminated by fault of the contractor. A
settlement is negotiated between the government and the contractor to determine an equitable
compensation for the contractor.

                       The Failed and Costly BSA Direct R&S System Development Effort Provides    Page 31
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
             Table 1: BSA Direct R&S Costs as of March 2008 ($ in thousands)
                  Type                                                      Cost
             Planning phase                                                            $525
             Initial award of contract to EDS                                         8,983
             Additional scope, labor, hardware, software, and overrun                 5,844
             expense added to EDS contract
             MITRE IV&V contract                                                       991
             Personal services contract                                                150
             FinCEN labor                                                              572
             Other incidental expenses                                                 119
             Assessment phase                                                          185
                  Total                                                            $17,369
             Source: OIG review of FinCEN data.



Concluding Remarks and Recommendations
            BSA Direct R&S was an unnecessary system development failure
            that resulted in millions of dollars being wasted. The FinCEN senior
            leadership at the time did not ensure the proper planning and
            management of the project. They also did not heed warnings from
            staff and contractors regarding bad news about the progress of the
            development effort. This is the most important lesson that should
            be taken from BSA Direct R&S and avoided by FinCEN in pursuing
            its current BSA modernization effort as well as any future
            investments of this nature. Also important going forward, FinCEN
            should fully partner with the Treasury’s OCIO and ensure the
            funding is in place and the most appropriate contract vehicle is
            used when undertaking system development projects. Likewise,
            Treasury OCIO should more closely monitor FinCEN’s progress than
            was done with BSA Direct R&S. FinCEN should also fully partner
            with IRS for a fully consolidated solution.

            There were two other troublesome matters regarding the BSA
            Direct R&S project that FinCEN must avoid going forward. The first
            matter was the extent of the PSC’s involvement in the project. The
            blanket authorization to hire PSCs as granted in FinCEN’s annual
            appropriation is not common. We believe that authorization was
            abused by FinCEN in the way the individual was used on the
            project and the perceived and apparent authority that the individual
            exercised over FinCEN staff and contractors. The second matter

            The Failed and Costly BSA Direct R&S System Development Effort Provides      Page 32
            Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
was the failure by FinCEN to maintain adequate contract and
financial records for BSA Direct R&S. Complete and accurate
records of the current BSA modernization program will be critical
to, among other things, allow for an appropriate audit trail and
provide for complete and accurate semiannual reporting to the
Congress as directed by House Report 111-366.

We recommend that the Director of FinCEN do the following:

1. Ensure that future information technology projects, including the
   current BSA modernization project, are properly planned and the
   necessary expertise for project management is in place.

    Management Response

    FinCEN stated that it has restructured its information
    technology division, TSSD, to better align with delivery of
    information technology services to its customers. This division
    established SDLC to guide and institute common practices
    across the division for the latest Information Technology
    Modernization Program. SDLC focuses on requisite planning
    activities that result in documentation to include, but are not
    limited to, the Enterprise Transition Strategy and associated
    Business Case, Program Management Plan, and Business
    System Requirements Report.

    FinCEN stated that it has also added senior staff to the TSSD
    over the past 3 years. These include a CIO who has 20 years of
    information technology and contracting experience working on
    large-scale information technology modernization efforts in the
    private and public sectors. Also, the Program Manager has the
    certifications of Program Management Professional, Senior
    Project Manager from the Treasury CIO, and COTR. Four
    individual program managers in the division have extensive
    information technology project management experience and are
    also certified COTRs. FinCEN stated that the TSSD has
    instituted a Technical Review Board, Project Review Board,
    Modernization Management Office Board and Enterprise
    Planning Board to oversee the new program. FinCEN also
    established a Project Management Office to provide guidance

The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 33
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
    and perform select assessments, and provide subsequent
    feedback on the program to the CIO and Program Manager.

    OIG Comment

    The actions taken as described by FinCEN meet the intent of
    our recommendation. We have initiated an audit of FinCEN’s
    BSA IT Modernization program, and plan to assess these actions
    as part of that audit.

2. Ensure ongoing and appropriate coordination with the
   Treasury’s OCIO concerning the current BSA modernization
   project as well as future information technology initiatives.

    Management Response

    FinCEN stated that Treasury’s OCIO has played an integral part
    in establishing the BSA IT Modernization Program as a priority
    and in obtaining endorsement from the Treasury Executive
    Investment Review Board. FinCEN also has ongoing
    coordination through two of FinCEN’s governance boards. One
    board is the Modernization Executive Group, which is comprised
    of the Treasury CIO, the FinCEN Director, and IRS Deputy
    Commissioner of Operations and Management. The second
    board is the Executive Steering Committee, which includes
    FinCEN’s Associated Directors, IRS Senior Leadership, and a
    senior representative from Treasury’s OCIO. These boards meet
    on a regular basis and discuss the status, risks, and issues with
    the program and provide approval for completion of milestone
    phases in FinCEN’s SDLC. FinCEN stated that Treasury’s OCIO
    also reviews monthly status reports of the program from the
    Federal IT Dashboard and provides a rating on the cost/schedule
    information. In addition, FinCEN’s BSA IT Program Manager
    serves as FinCEN’s Capital Investment and Planning Coordinator
    and has ongoing communication and face-to-face meetings with
    the Treasury Capital Investment and Planning Control office.




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 34
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
    OIG Comment

    The actions taken as described by FinCEN meet the intent of
    our recommendation. We plan to assess these actions as part of
    our audit of the BSA IT Modernization Program.

3. Coordinate with IRS for a consolidated solution to meeting the
   data needs of FinCEN and its customers.

    Management Response

    FinCEN stated that it has coordinated with IRS representatives
    from various offices from the inception of the BSA IT
    Modernization Program. IRS representatives have reviewed and
    commented on the final draft of the Information Technology
    Modernization documents and FinCEN has had meetings with
    IRS about the documents. FinCEN’s Data Management Council
    includes representatives from IRS’s Criminal Investigation, Small
    Business/Self-Employed, and Large and Mid-Size Business
    divisions who regularly participate in monthly meetings. The
    BSA IT Modernization governance structure includes IRS,
    FinCEN, and Treasury representation to help ensure that the
    bureaus collaborate on any new BSA efforts. In addition,
    FinCEN stated that IRS and FinCEN agreed to have MITRE
    perform an independent study to demonstrate that the current
    structure does not meet the needs of BSA customers, to ensure
    involvement of IRS’s Modernization and Information Technology
    Services and Enterprise Service organizations in reviews of
    foundational program documents, and to establish ongoing
    coordination between FinCEN and IRS.

    OIG Comment

    The actions taken as described by FinCEN meet the intent of
    our recommendation. We plan to assess these actions as part of
    our audit of the BSA IT Modernization Program.

4. Ensure that the security clearance requirements established in
   contracts are appropriate for the services and physical access


The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 35
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
    requirements of contractor personnel, and ensure all contractor
    personnel fully comply with those requirements.

    Management Response

    FinCEN stated that its Security Office establishes clearance or
    background levels for logical and/or physical access to FinCEN’s
    facilities, information, and information systems for all FinCEN
    contracts in accordance with applicable requirements. The
    Security Office meets with the COTR and information Security
    Office staff and IT Security staff for all contracts to determine
    the proper background check or clearance level needed for
    contractors. Based on the clearance recommendations made,
    the Security Office outlines the contract security requirements.
    After the contract is awarded but prior to commencement of
    work, the contractor must send FinCEN a clearance certification
    letter and a copy of a current Joint Personnel Adjudication
    System printout for all contractor personnel to certify
    background investigation and clearance information.

    OIG Comment

    The process for establishing security clearance requirements
    and ensuring their compliance, if followed as described, meet
    the intent of our recommendation.

5. Ensure that adequate contract and financial records are
   maintained for the current BSA modernization projects to allow
   for audit as well as accurate reporting to FinCEN management,
   Treasury’s OCIO, and the Congress.

    Management Response

    FinCEN stated that the Department of the Interior’s National
    Business Center Acquisition Services Directorate (AQD)
    provides acquisition support for the BSA IT Modernization
    Program and is serving as the CO of record. AQD maintains the
    complete contract file. FinCEN’s Acquisition Office is
    responsible for monitoring contract progress and performance,
    and also maintains a working contract file. Regarding financial

The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 36
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
    records, FinCEN is using the Bureau of the Public Debt
    accounting and financial system to record FinCEN’s project
    costs. This system allows FinCEN to use project codes to track
    expenditures and generate reports showing line item
    accounting. This system will be used throughout the program so
    this recommendation will remain open through the end of the
    contract period of performance in March 2013.

    OIG Comment

    The actions taken and planned by FinCEN meet the intent of our
    recommendation. We plan to assess these actions as part of our
    audit of the BSA IT Modernization Program.

6. Assess the controls over FinCEN’s use of personal services
   contracts to ensure that such contracts are appropriate to
   FinCEN’s mission, and that individuals hired under personal
   services contracts perform duties that are appropriate and
   within their expertise.

    Management Response

    FinCEN stated that its current acquisition policy allows for the
    use of personal services contracts only when no other type of
    contractual vehicle is possible. The contract needs to be
    approved by the Bureau Chief Procurement Officer. If this type
    of contract is necessary, it is to be used strictly for certain
    purposes and the scope of the contract is to be narrowly
    focused on the unique and specific skill sets of the individual
    with whom the contract is formed. FinCEN stated that it
    currently has no personal services contracts and none are
    anticipated in the future.

    OIG Comment

    The actions taken by FinCEN meet the intent of our
    recommendation.

Additionally, we recommend that the Treasury CIO do the
following:

The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 37
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
7. Ensure Treasury’s OCIO closely monitors the BSA modernization
   project. Among other things, OCIO’s monitoring should ensure
   that FinCEN is following sound project management principles
   and if not, appropriate corrective action is promptly taken.

    Management Response

    The Acting Deputy Assistant Secretary for Information
    Systems/Chief Information Officer stated that in addition to
    routine monitoring by Treasury’s OCIO Capital Planning and
    Investment Control desk officer, several enhanced oversight
    mechanisms are in place. Senior Treasury executives are
    involved in structured governance forums to review the
    progress of the BSA IT Modernization effort and keep cost,
    schedule, and performance on track. As cited examples, the
    FinCEN Director, Treasury CIO, and IRS Deputy Commissioner
    formed the BSA IT Modernization Executive Group, the highest-
    level joint recommendation and decision-making body
    overseeing the project. This group is responsible for reviewing
    the project at critical junctures and authorizing the project to
    proceed to the next milestone or directing that corrective
    actions be taken (i.e., modify/suspend/halt program). Also, the
    Treasury Deputy Secretary and the Assistant Secretary for
    Management monitor and direct the progress of the BSA IT
    Modernization Program through periodic (generally quarterly)
    status reviews. In addition, the OCIO has included the project
    on the Treasury High Visibility List. This list is comprised of
    major information technology investments that are subjected to
    extra OCIO scrutiny and attention. In addition to these oversight
    mechanisms, OMB conducted status reviews in the spring of
    2010 before authorizing BSA IT Modernization to proceed.
    Periodic status reviews and reports are provided to OMB on the
    project, through monthly updates to the OMB IT Dashboard,
    meetings, and email and voice correspondence.

    OIG Comment

    The actions being taken by Treasury’s OICO meet the intent of
    our recommendation. As part of our audit of the BSA IT

The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 38
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
    Modernization Program, we plan to assess the oversight
    exercised by Treasury’s OCIO.

                                 ******

We would like to extend our appreciation to FinCEN personnel for
the cooperation and courtesies extended to our staff. If you have
any questions, please contact me at (617) 223-8640 or Sharon
Torosian, Audit Manager, at (617) 223-8642.


/s/
Donald P. Benson
Director




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 39
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 1
Objectives, Scope, and Methodology




The overall objective of our audit was to assess the Financial
Crimes Enforcement Network’s (FinCEN) efforts in planning,
awarding, monitoring, resolving problems, and reporting
performance for the BSA Direct Retrieval & Sharing (R&S) contract,
as well as to evaluate why the project was not successfully
completed and the lessons learned from this effort. We also
assessed the monitoring of the project by Treasury’s Office of the
Chief Information Officer (OCIO). Our specific objectives were to
(1) determine why system development failed, (2) evaluate the
project’s planning, (3) determine the amount and source of funds
spent on BSA Direct R&S development, and (4) provide
recommendations to increase the likelihood of successful initiatives
of this nature going forward.

To gain an understanding of the BSA Direct R&S project, we
interviewed senior-level management and project staff at FinCEN
Headquarters in Vienna, Virginia. In addition, we interviewed
former directors of FinCEN, including the individual who served as
the director from December 1, 2003, to February 3, 2006, to
obtain his knowledge and views on why the project was not
successfully completed. The interviews enabled us to gain
information on BSA Direct R&S history, the procurement process,
perspective on each individual’s knowledge and level of
involvement, contractual concerns, and events leading up to the
stop work order.

We also interviewed

•   representatives from Electronic Data Systems Corporation
    (EDS), the contractor for the project, at EDS’s offices in
    Herndon, Virginia, to determine their understanding of why the
    project failed to meet its performance milestones.

•   officials from MITRE Corporation in McLean, Virginia, who
    provided independent validation and verification support for BSA
    Direct R&S, to gain information on their level of involvement
    with the project, as well as issues, concerns, and other
    significant matters they observed during the life of the project.



The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 40
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 1
Objectives, Scope, and Methodology




•   Treasury’s Associate Chief Information Officer, Capital Planning
    and Management, and the Desk Officer within the Treasury
    OCIO assigned to monitor the project, to obtain their
    perspectives on BSA Direct R&S and to determine what was
    communicated to OCIO about issues encountered during the
    project. We also met with a former assistant to the CIO to
    discuss his work and time spent on-site at FinCEN working on
    BSA Direct R&S.

We also wanted to talk to the individual who served as the
Treasury Chief Information Officer (CIO) at the time the project
was being developed about his role with BSA Direct R&S. The
former Treasury CIO, who had retired from federal service, did not
respond to our request.

It should be noted that we experienced significant delays in
obtaining documentation from FinCEN regarding the project. We
asked FinCEN for all documentation related to BSA Direct R&S. We
made our initial request in May 2006 but did not begin to receive
documentation from FinCEN until more than 2 months later, in
August 2006. After that, FinCEN provided the information to us
over the course of several months. Our audit fieldwork was also
extended because we experienced significant delays from FinCEN
officials when we submitted any additional requests for
information.

We reviewed the project-related information that FinCEN provided
to us, including e-mail correspondence; documents pertaining to
the procurement process; management reports from FinCEN,
MITRE, and EDS; and various memoranda. FinCEN did not provide
the complete contract file for BSA Direct R&S but later gave us a
re-created electronic version of the contract file that was
incomplete. We also requested, received, and reviewed all
information related to BSA Direct R&S from the Bureau of the
Public Debt, FinCEN’s contracting office for the project.

All FinCEN officials involved with BSA Direct R&S individually
confirmed in writing that all BSA Direct R&S–related materials were
made available to OIG. There were no other audit procedures that


The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 41
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 1
Objectives, Scope, and Methodology




we could perform to ensure that the documentation provided was
complete.

In addition to documentation received from FinCEN, we reviewed
background information including (1) the Federal Acquisition
Regulation; (2) FinCEN’s 5-year Strategic Plan and 2005 Annual
Report; and (3) laws, regulations, guidance, and Treasury directives
applicable to capital planning and investment control and managing
information systems and information technology.

We performed our fieldwork from May 2006 to June 2007, though
we continued to clarify information through 2009. Issuance of our
final report was also delayed due to other priority work by our
office. That work principally relates to an unprecedented number of
reviews of failed financial institutions that we are required to
perform under the Federal Deposit Insurance Act. We performed
our audit in accordance with generally accepted government
auditing standards.




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 42
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       Appendix 2
                       Background




                       Bank Secrecy Act

                       BSA, enacted in 1970, requires that financial institutions file
                       certain reports and maintain specific records to, among other
                       things, provide a paper trail of the activities of money launderers
                       and others who commit financial crimes. Approximately 18 million
                       BSA reports of various types are filed each year by about 200,000
                       financial institutions currently subject to BSA reporting and
                       recordkeeping requirements. 38 The vast majority of these reports
                       are currency transaction reports (CTR), which are required (unless
                       exempted) for cash transactions exceeding $10,000. SARs are
                       filed when transactions are suspicious in nature because they
                       appear to involve such activity as structuring (using transactions
                       under $10,000 to avoid being the subject of a CTR), bribery, fraud,
                       use of counterfeit instruments, identity theft, terrorist financing,
                       and the like. SARs generate leads that law enforcement agencies
                       use to initiate or help complete money-laundering and terrorist
                       financing investigations. The purpose of such documentation is to
                       enable law enforcement and regulatory agencies to investigate
                       criminal, tax, and regulatory violations and provide evidence in
                       prosecuting financial crimes. FinCEN, a bureau within the
                       Department of the Treasury, administers and enforces BSA. As part
                       of this responsibility, FinCEN provides information to law
                       enforcement and regulatory officials.

                       BSA Direct R&S Contract

                       In February 2004, FinCEN issued a request for proposals for BSA
                       Direct R&S with full and open competition. In June 2004, FinCEN
                       awarded a cost-plus-fixed-fee contract 39 to EDS for the design,

38
   For purposes of this report, the term financial institution refers to depository institutions, such as
banks, credit unions, and thrifts; money services businesses (e.g., money transmitters; issuers,
redeemers, and sellers of money orders and travelers’ checks; check cashers and currency exchangers);
casinos and card clubs; brokers or dealers in securities and futures; insurance companies; and mutual
funds. At the time of our audit, SARs were required of all the aforementioned groups, with the
exception of insurance companies and mutual funds.
39
   Cost-reimbursement types of contracts such as that used for BSA Direct R&S provide for payment of
allowable incurred costs, to the extent prescribed in the contract. These contracts establish an estimate

                       The Failed and Costly BSA Direct R&S System Development Effort Provides    Page 43
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       Appendix 2
                       Background




                       development, and deployment of BSA Direct R&S. The winning bid
                       totaled just under $9 million. 40 The contractor planned to complete
                       system development and begin operation in October 2005.

                       Beginning in October 2004, FinCEN employed MITRE to monitor
                       BSA Direct R&S project milestones and report findings to FinCEN
                       as part of its independent verification and validation function.

                       Congressionally Approved Funding

                       In 2004 and 2005, Congress approved $9.5 million for BSA Direct
                       R&S. This amount included $2 million transferred from TFF in fiscal
                       year 2004 and $7.5 million that Congress earmarked specifically
                       for BSA Direct R&S in FinCEN’s fiscal year 2005 appropriation. 41

                       An additional $2.3 million of TFF funding was approved for BSA
                       Direct R&S in fiscal year 2006. FinCEN applied $2 million of this
                       amount to the BSA Direct project and the remaining $300,000 to
                       WebCBRS. 42

                       FinCEN’s Purpose for Initiating BSA Direct R&S

                       FinCEN wanted to develop BSA Direct R&S because it would make
                       robust, state-of-the-art, data-mining capabilities and other analytic
                       tools available directly to law enforcement. FinCEN’s plan was to


of total cost for the purpose of obligating funds and establishing a ceiling that the contractor may not
exceed (except at its own risk) without the approval of the CO. Cost-reimbursement contracts are
suitable for use only when uncertainties involved in contract performance do not permit costs to be
estimated with sufficient accuracy to use any type of fixed-price contract.
40
   The total amount of the contract with EDS, $8,982,985, had the potential to reach $19 million.
FinCEN obligated about $9 million for the design, implementation, and deployment of the system. The
balance of $10 million related to additional services for operations and maintenance and Web-hosting
services. These additional services consisted mainly of options extending out 5 years after system
deployment.
41
   The President’s fiscal year 2005 budget had IRS transferring $2.5 million to FinCEN for maintenance
of the BSA Direct R&S system. Congress provided the $2.5 million in FinCEN’s budget along with one-
time funding of $5 million for initial design and development of the system. These funds were explicitly
identified in the Fiscal Year 2005 Consolidated Appropriation Act (Pub. L. No. 108-447) for BSA Direct;
the amount was later reduced to $7.44 million as the result of Congressional Rescission H.R. 4818.
42
   Web-based Currency and Banking Retrieval System (WebCBRS) is IRS’s data warehouse and
information retrieval system.

                       The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 44
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 2
Background




provide all users with access to these data through BSA Direct
R&S, working with law enforcement customers to ensure that their
systems extracted the maximum value from information reported in
accordance with BSA.

FinCEN’s plan would reduce IRS’s BSA data management
responsibilities. Since BSA’s enactment in 1970, IRS has collected
and maintained BSA data at its Enterprise Computing Center in
Detroit, Michigan. In 1993, FinCEN initiated Project Gateway to
provide state law enforcement agencies with online access to BSA
data through a computer modem and telephone lines. This modem
access was later replaced with Web-based access available via
FinCEN’s Secure Outreach Web system.




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 45
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       Appendix 3
                       Chronology of Significant BSA Direct R&S Events




The following chronology describes significant events in the history of the Financial
Crimes Enforcement Network’s (FinCEN) efforts to develop and implement the BSA
Direct Retrieval and Sharing (BSA Direct R&S) project.

 Date                    Event
 February 24, 2003       FinCEN issued a request for information, which asked for (1) conceptual
                         technical architecture alternatives; (2) technical feasibility alternative
                         assessments; (3) approximate cost information; (4) schedule estimates; and
                         (5) ideas and suggestions providing alternative approaches to designing,
                         developing, acquiring, operating, and managing the system.
 June 16, 2003           A FinCEN contractor performed a gap analysis that recommended FinCEN
                         make improvements, such as creating a BSA Program Office and improving
                         its relationship with the Internal Revenue Service (IRS). The contractor’s
                         report recommended that FinCEN seek to work jointly with IRS to reduce
                         overlapping development efforts between the two organizations.
 October 6, 2003         FinCEN’s Director announced the BSA Direct R&S effort.
 November 2003           FinCEN began developing the proof of concept prototype. 43
 December 1, 2003        A new Director of FinCEN is appointed. The individual served in this capacity
                         until February 2006.
 February 2004           FinCEN learned that IRS had accelerated the implementation of the Web-
                         based Currency and Banking Retrieval System (WebCBRS) from 2009 to
                         2005.
 February 13, 2004       FinCEN issued the request for proposals and solicitation for BSA Direct R&S.
 May–June 2004           A FinCEN technical evaluation panel evaluated the proposals.
 June 30, 2004           FinCEN awarded the BSA Direct R&S contract to Electronic Data Systems
                         Corporation (EDS).
 July 9, 2004            EDS conducted a BSA Direct R&S kick-off briefing conducted to introduce
                         key personnel and high-level project schedule, milestones, and work plan.
 July 2004               EDS was unable meet the requirements for contractual security clearance
                         requirements.


43
  A proof of concept prototype is intended to demonstrate how a system will work and to enhance
knowledge of technical and management issues. This is to more effectively manage the development
and deployment of the system. FinCEN developed a proof of concept and had a planned performance
goal in its Exhibit 300 for the contractor to deliver a complete proof of concept prototype in fiscal year
2004 as well. None was ever provided, however, and the BSA Direct R&S contract did not identify the
proof of concept prototype listed as a deliverable item. Time constraints were given as to the reason
why there was no prototype or pilot for testing. FinCEN’s Senior Information Technology Specialist/
Senior Advisor told us that every information technology system started at FinCEN had begun as a pilot,
with the exception of BSA Direct R&S.




                       The Failed and Costly BSA Direct R&S System Development Effort Provides    Page 46
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                       Appendix 3
                       Chronology of Significant BSA Direct R&S Events




 Date                    Event
 July 2004               FinCEN’s second BSA Direct R&S project manager (PM) was assigned.
 August 2004             EDS was contractually required to submit a baseline plan. EDS, however,
                         provided a project schedule that was not baselined (i.e., it did not include
                         planned milestones as required by the contract). 44 EDS did not provide a
                         baseline schedule that was accepted by FinCEN until December 2004.
 September 2004          Senate Report 108-342 recommended supporting the President's fiscal year
                         2005 budget request of $2.5 million and providing another $5 million to
                         complete BSA Direct R&S by October 2005. The report further directed that
                         no fiscal year 2005 funding be expended before Congress received
                         certification from Treasury that FinCEN and IRS were not constructing
                         duplicate information technology systems for BSA data. The Secretary of the
                         Treasury was to provide this certification within 30 days.
 October 2004            The MITRE Corporation began independent verification and validation
                         activities.
 October 7, 2004         The first modification to the BSA Direct R&S contract obligated $1.5 million
                         in additional incremental funding.
 November 2004           MITRE issued its first report on the project, describing it as chaotic and citing
                         numerous past due deliverables and failures to document and manage critical
                         path activities.
 November 17-18,         FinCEN and EDS held their first contracting meeting to discuss concerns
 2004                    associated with the contract—past due deliverables, project schedule, and
                         staffing. FinCEN officially informed EDS of the less-than-acceptable status of
                         some of its deliverables.
 November 19, 2004       House Report 108-792 modified the direction proposed by the Senate
                         regarding duplicate FinCEN and IRS systems. The conferees directed the
                         Secretary to certify within 30 days of enactment of the Consolidated
                         Appropriations Act that FinCEN’s BSA information collection system was the
                         only system of its sort under development. The report also stated that none
                         of the funds provided to IRS for information technology projects could be
                         obligated until the Secretary provided such certification.
 December 2004           FinCEN’s contracting officer for BSA Direct R&S drafted a letter to EDS
                         addressing EDS’s failure to meet contract deliverable dates and quality
                         issues. The letter was not sent.
 December 8, 2004        The Consolidated Appropriation Act, 2005 (Pub. L. No. 108-447) provided
                         $7.5 million funding explicitly for BSA Direct R&S.
 December 9, 2004        The Secretary of the Treasury certified by letter to Congress that the BSA
                         development program was the only effort of its kind within the Department.

44
  A baseline schedule was required no later than 20 business days after the approval of the preliminary
schedule, which was July 20, 2004.




                       The Failed and Costly BSA Direct R&S System Development Effort Provides      Page 47
                       Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                      Appendix 3
                      Chronology of Significant BSA Direct R&S Events




 Date                    Event
 January 6, 2005         The second modification to the BSA Direct R&S contract obligated
                         approximately $5.5 million in additional incremental funding to fully fund the
                         base period of the project.
 January 2005            EDS’s second BSA Direct R&S PM was assigned.
 February 16, 2005       FinCEN’s third BSA Direct R&S PM was assigned.
 March 17, 2005          The third modification to the BSA Direct R&S contract changed the PM for
                         EDS and revised security clearance procedures.
 March 21, 2005          The fourth modification to the BSA Direct R&S contract incorporated specific
                         requirements for Gateway and made security revisions to comply with
                         Treasury mandates that the contractor conduct system certification and
                         accreditation requirements in accordance with NIST 800-37. 45
 April 18, 2005          The fifth modification to the BSA Direct R&S contract permitted EDS project
                         staff to obtain interim security clearances based on a National Agency Check.
 April 25, 2005          MITRE briefed FinCEN’s Director about its concerns related to EDS’s ability to
                         meet the October 14, 2005, delivery date.
 May 10, 2005            MITRE presented to EDS the same briefing given to the Director on April 25.
 May 20, 2005            The FinCEN Chief Counsel sent a memorandum to FinCEN’s Director
                         describing actions FinCEN must take to enforce and preserve its contractual
                         rights.
 June 3, 2005            FinCEN issued a letter to EDS on the government’s heightened concern about
                         EDS's ability to successfully deliver the BSA Direct R&S system on time and
                         in accordance with the operational capabilities and requirements.
 June 13, 2005           EDS responded to FinCEN’s letter, claiming that many delays were directly
                         attributable to FinCEN.
 August 31, 2005         FinCEN, we were told, accepted Iteration 1 of BSA Direct R&S.
 September 1, 2005       FinCEN’s second contracting officer’s technical representative for BSA Direct
                         R&S was assigned.
 September 1, 2005       The sixth modification to the BSA Direct R&S contract obligated additional
                         incremental funding.
 September 12, 2005      The seventh modification to the BSA Direct R&S contract established the
                         new FinCEN contracting officer’s technical representative and obligated
                         approximately $2.8 million in additional incremental funding to the contract.
                         The delivery date for full operating capacity was changed from October 14,
                         2005, to having an Initial operating capacity at Iteration 2 completed on
                         January 25, 2006, and Iteration 3 scheduled to be delivered on April 28,
                         2006.

45
  The National Institute of Standards and Technology (NIST) developed this special publication in
accordance with its statutory responsibilities under the Federal Information Security Management Act of
2002.




                      The Failed and Costly BSA Direct R&S System Development Effort Provides    Page 48
                      Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
                     Appendix 3
                     Chronology of Significant BSA Direct R&S Events




Date                   Event
September 13, 2005     The eighth modification to the BSA Direct R&S contract obligated additional
                       incremental funding.
September 13, 2005     The ninth modification to the BSA Direct R&S contract obligated additional
                       incremental funding and increased the contract value for hardware/software
                       maintenance.
October 14, 2005       The initial contractual delivery date for BSA Direct date R&S passed.
October 21, 2005       The second EDS PM for BSA Direct R&S resigned. The third EDS PM for BSA
                       Direct R&S was assigned.
November 16, 2005      A review of test scripts by FinCEN indicated that fewer than 10 percent of
                       the test scripts were acceptable.
December 2005          FinCEN’s Assistant Director of the Office of BSA Data Services met with
                       FinCEN’s Director and informed him that the project was at a crossroad in
                       deciding whether or not to terminate the BSA Direct R&S.
December 14, 2005      FinCEN called a meeting with EDS senior management. EDS committed to
                       additional staffing and expertise at no additional cost to the government.
January 2006           MITRE projected that BSA Direct R&S would not be completed until
                       September 2006. The FinCEN Director requested that work start on the use
                       of the IRS Web-based Currency Banking and Retrieval System contingency.
January 13, 2006       MITRE raised concerns that BSA Direct R&S had not been sufficiently tested.
January 30, 2006       EDS proposed to change Initial operating capacity date for Iteration 2 from
                       January 25, 2006, to March 31, 2006.
February 3, 2006       The FinCEN Director resigned to take a position in private industry.
February 17, 2006      A new FinCEN Director was appointed. At the time of his appointment, the
                       individual was serving as the Director of Treasury’s Office of Foreign Assets
                       Control.
February 22, 2006      EDS proposed a revised Initial Operating Capacity for Iteration 2 to April 28,
                       2006, which was the same due date for Iteration 3.
March 15, 2006         FinCEN issued a 90-day stop work order for BSA Direct R&S.
May 30, 2006           FinCEN extended the stop work order by 30 days.
July 13, 2006          FinCEN permanently halted all work on BSA Direct R&S.
March 2007             Mr. James Freis is appointed as FinCEN’s Director and currently serves in
                       that position. At the time of his appointment, Mr. Freis was serving in the
                       Treasury Department as Deputy Assistant General Counsel for Enforcement
                       and Intelligence. (The Director appointed in February 2006 resigned the
                       position in December 2006 to take a job in private industry.)
                      Source: OIG analysis of FinCEN data.




                     The Failed and Costly BSA Direct R&S System Development Effort Provides    Page 49
                     Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 4
FinCEN’s Management Response




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 50
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 4
FinCEN’s Management Response




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 51
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 4
FinCEN’s Management Response




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 52
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 4
FinCEN’s Management Response




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 53
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 5
Treasury’s Office of the Chief Information Officer Management Response




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 54
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 5
Treasury’s Office of the Chief Information Officer Management Response




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 55
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 6
Major Contributors to This Report




Office of Inspector General

Sharon Torosian, Audit Manager
Mark Ossinger, Audit Manager
Jeanne Degagne, Auditor
Jenny Hu, Auditor
Terri Nabiam, Auditor
Kenneth O’Loughlin, Auditor
Jaideep Mathai, Referencer




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 56
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
Appendix 7
Report Distribution




Department of the Treasury

Deputy Secretary
Under Secretary for Terrorism and Financial Intelligence
Acting Chief Information Officer
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Financial Crimes Enforcement Network

Director

Office of Management and Budget

OIG Budget Examiner




The Failed and Costly BSA Direct R&S System Development Effort Provides   Page 57
Important Lessons for FinCEN’s BSA Modernization Project (OIG-11-057)
